            DEPARTMENT     OF HEALTH & HUMAN SERVICES                               Office of Inspector   General




Date:


From:


Subject:                                      nters’ Outreach Activities   for SCHIP and
                Medicaid   Expansions,   OEI-06-98-00322

To: 	           Marilyn H. Gaston, M.D.
                Assistant Surgeon General
                Associate Administrator for Health Resources and Services Administration


This report responds to a request from staff of HRSA’s Bureau of Primary Health Care, Office of 

State and National Partnerships, for our latest information on SCHIP and Medicaid Expansions 

outreach activities by the community health center grantees and their States. Although by this 

summer we expect to release a full inspection report on the experiences of community health 

center grantees in the implementation  of SCHIP and Medicaid Expansions, we are happy to 

accommodate HRSA’s current data needs by presenting the preliminary results for a subset of our 

data. This report has been revised to reflect informal comments on content that we received from 

HRSA’s Bureau of Primary Health Care and HCFA. 


SUMMARY 


Eighty-three percent of the health center grantees reported that they were conducting outreach 

activities to enroll uninsured children in SCHIP and Medicaid Expansions;      Seventy-four percent also 

reported they were aware of their respective State government’s        involvement in such activities. 

Thus, one of four health center grantees did not experience any State level outreach activities and 

one of six health center grantees did not conduct any type of outreach activities on their own. 

Sixty-one percent of health center grantees did not have outstationed eligibility workers, despite 

the fact that very few of them were designated as “low use” sites, i.e’. having few Medicaid 

eligible clients. Of those that had outstationed eligibility workers, most received some State 

funding. 


METHODOLOGY 


In 1999, we published CHIP’s Impact on Changing Service Delivery of Federal Health Centers: Six 

Case Studies, OEI-06-98-00320.     Subsequently,  based on issues developed from these case 

studies, we developed survey questions and collected national data .from Federally funded health 

center grantees via the Internet and mail surveys from January 4 to February 19, 2000. Using the 

HRSA 1998 UDS database, we had selected a simple random sample of 462 Federally funded 

health center grantees from a total of 615 that included Primary Health Centers, Homeless Centers 

and Migrant Heath Centers (Section 330 Grantees). A total of 405 (88%) of the sampled health 

center grantees returned completed surveys including health center grantees from 50 States, the 

District of Columbia, and Puerto Rico. Since the focus of the study was the health center 

grantees’ experiences with SCHIP and Medicaid Expansions,      we did not validate their responses 

with the States, nor did we attempt to determine any plans or implementation      schedules States 

  Page 2 - Marilyn     H. Gaston,   M.D.

  may have had in place. This representative    sample allows the national results presented here to be
  statistically significant at a 95% degree of confidence. Although our study was designed for the
  national level, the high response rates from health center grantees within the States should also
  provide a meaningful description of the SCHIP and Medicaid Expansions outreach activities at the
  State level from the health center grantees’ perspective.

  FINDINGS

  Eighty-three percent of the health center grantees reported they were engaging in SCHIP and
  Medicaid Expansions outreach activities.       The most frequent outreach methods are screening and
  identifying eligible children from existing clients (76%), posting SCHIP and Medicaid Expansions
  information fliers and/or posters in their health centers (73%), and providing SCHIP and Medicaid
  Expansions    information through their health providers (64%).

  Seventy-four   percent of health center grantees said they were aware of SCHIP and Medicaid
  Expansions outreach activities conducted by their States. The most frequent State outreach
  methods reported by health center grantees are public service announcements      (60%), information
  through schools (46%j and newspaper advertisements        (42%). Another 13 percent indicated that
  such activities are in the planning stage. However, 12 percent of the health center grantees were
  unaware of any State-conducted      SCHIP and Medicaid Expansions outreach activities.

   Sixty-one percent of health center grantees did not have outstationed           eligibility workers, despite
   the fact that very few of them were designated as “low use” sites, i.e. having few Medicaid eligible
   clients. Of those that had outstationed        eligibility workers, most received some State funding.        Of
   the health center grantees with eligibility workers, 45 percent indicated that the States provided
   full funding for the position and another 30 percent indicated that the positions were partially
   funded by the States. Twenty-five         percent of hea!th center grantees provided their own funding for
   eligibility workers. Among the 61 percent of the health center grantees that did not have
-	 outstationed    eligibility workers,   only 7 percent were reported to be “low use” sites. The number
   of outstationed     eligibility workers in terms of full time equivalents (FTEs) varied widely from 0.1
   FTEs to 13 FTEs per grantees with 68 percent reporting FTEs up to 1 .O.

  PRELIMINARY        DATA 


  The attached tables show preliminary results for SCHIP and Medicaid Expansions outreach activities 

  on the national level. The State level raw data is provided in a matrix format.  In the near future, 

  we expect to release a full inspection report which will focus on: health center grantees’ and State 

  Primary Care Associations’   involvement   in the SCHIP and Medicaid Expansions planning, outreach 

  activities and enrollment process; managed care contracts and reimbursement;      and altering health 

  center grantees’ business infrastructure   and operational’ adjustments. We hope this preliminary 

  data is helpful to HRSA. If you or your staff have any questions, please contact 

  Elise Stein at 202-619-0480    or Judy Tyler at 214-767-3310. 


  Attachments: 


  Table   A:   Sample 

  Table   B:   Survey Questions 

  Table   C:   National Results 

  Table   D:   Data by State 


  cc:      Tim Westmoreland
           Director, 	 Center for Medicaid
             and State Operations, HCFA
I                     = Table A: Health Center Population   and Sample Size by State                          I
     State   Date State CHIP   Program      # 330 Grant Health     # Health Centers    # Health Centers
             Plan Approved      Type*     Centers (CHC, HO, MHC)       Sampled            Responding
                                                 IN = 515)             (n=452)             In=4051




      co         02198            S                 14                    8                   8

      CT         04/98            C                  8                    5                   5

      DC         09198           M                   1                    1                    1

      DE         09198            s                  3                    1                    1

      FL         03198            C                 29                    19                  15

      GA         -09190           S                 19                    14                  13          ’

      HI         01199    .-      M                  4                    2                   2

      IA         09198            C                  5                    3                   3

      ID         05198            M                  7                    5                    6

-	    IL         04l98            M                 17                    13                  13

      IN         05198            M                  5                    5                    5

      KS         09198            s                  5                    ‘3                   4

      KY          1II98           C                 10                    9                    8

      LA          1O/98           M                  9                    8                    7

      MA         05198            M                 20                    17                  13

      MD         07198            M                  9                    8                    8

      ME         08198            C                  5                    2                    3

      Ml         04198            C                 21                    14                  10

     MN          07198            M                  9                     7                   5

      MO          04198           M                 11                     8                   8

      MS          10198           C                 20                    15                  12

      MT          09198           S                  7                     5                   6

      NC          07198           S                 20                    13                  13

      ND          1Of98           M                  2                     2                   1
         Date State CHIP       # 330 Grant Health   # Health Centers   # Health Centers




    PR       -0519%        M           18                  13                 7

    RI       05198    -    M           5                   3                  3

    SC       0219%         M           18                  13                 IO

    SD       08198         M           5                   4                  4

-   TN       09199         M           19                  17                 15

    TX       05198         M           29                  22                 17

    UT       07198         S           8                   8                  7

    VA        1019%        S           14                  9                  8

    VT        12198        S           2                   1                   1

    WA       09199         S           23                  20                 17

    WI       05198         M           10                  8                  7

    WV       09198         C           11                  9                  9

    WY       09199         S           3                   2                  2
                     z     Table B: Health Center Survey Questions                         on Outreach

Q. 	 Thinking only about STATE activities,               what types of outreach             activities   does your STATE
     conduct for SCHIP ?

0    state IS conducting       outreach     activities
0    NONE, but outreach        activities    are under development
0    NONE, but state has allocated           money for outreach;              activities    not developed
0    state is NOT conducting          outreach    activities


Q.   You said your state is conducting            outreach      activities.      What are they?          (Select all that apply)

0    public service announcements             on television      or radio
0    billboards
0    direct mailing of SCHIP materials
0    newspaper       advertisements
0    information     through    school
0    through      the parental consent      process for school-based               health services
0	   through receiving health services            in the school-based            health center (SBHC) or school-linked
     health center (SLHC)
0    through      health education/promotion/outreach               activities      in the school from the SBHC or SLHC
0    other

Q. 	 Thinking only about your HEALTH CENTERS activities,                           is your HEALTH CENTER conducting
     outreach activities??

0    my center IS conducting          outreach     activities
0    my center IS NOT conducting             outreach     activities
                               Table B: Health Center Survey Questions                        on Outreach

Q. 	 You said your health center is conducting                 outreach         activities.         What are they?    (Select all that
     apply)

0    screening      and identifying       eligible families from existing               clients 

0    distributing     information       through    your health providers 

0    direct mailing         of SCHIP materials 

0    posters and/or fliers placed in your clinics 

0    school-based           health centers 

0    school-linked         health centers 

0    basic preventive          health services in schools 

0    health fairs 

0    distributing     program        information   at local business          sites 

0    door to door visits to potentially            eligible families 

0    collaborate      with other community           organizations 

0    other 


Q.   Does your center have an outstationed                 eligibility     worker? 


0    yes 

0    no 


Q.   You said that your center HAS an outstationed                       eligibility     worker.       How is the position    funded? 


0    fully funded      by the state 

0    partially funded         by the state 

0    not funded       by the state 


Q. 	 How many FTE’s (full time equivalents) of outstationed                            eligibility    workers    does your   center
     have ? (Use decimals. For example, 2% = 2.5)

                            FTE’s

Q. 	 You indicated that your health center DOES NOT HAVE an outstationed                                        eligibility worker. Has
     the state designated your health center a “low use” site for the purpose                                   of out-stationing
     eligibility workers ?


     (4      0        yes
     (b)     0        no         \
             Table C-l : All Health Centers -- Point Estimates and Confidence   Intervals
                              for Survey Questions on Outreach (n=405)

                                             Point Estimate   Standard Error       95% Confidence
Proportion of All Health Centers              (in percent)      (in percent)          Interval

Are States conducting      outreach
activities

+ yes 
                                            74              1.3                71.5   -   76.5
l no 
                                             12              0.9                10.1   -   13.9
l no, but funds allocated 
                         8              0.8                 6.5   -   9.5
b no, but developing 
                              5              0.6                 3.8   -   6.2
. don’t know 
                                      1              0.3                 0.4   -   1.6

Of States conducting      outreach,    the
top 3 activities:

. PSA’s on T\j, radio                              60              1.4                57.2 - 62.8
. info. through schools                            46              1.5                43.2 - 48.8
t newspaper ads                                    42              1.4                39.2 - 44.8

Centers reporting    they & conduct
outreach ativities      _                          83              1.1                 80.9 - 85.1

Of centers conducting      outreach,
the top 3 activities:

. screen current clients for                       76              1.2                 73.6 - 78.4
  eligibility
b posters/fliers in clinics                        73              1.3                 70.5 - 75.5
. info through health providers                    64              1.4                 61.3 - 66.7
               Table C-2.1 : All Health Centers -- Point Estimates and Confidence Intervals
                        for Survey Questions on Outstationed       Eligibility Workers
                                      *(n=405); **(n=15g);    ***(n=246)

                                             Point Estimate        Standard Error            95% Confidence
Proportion of All Health Centers              (in percent)           (in percent)               Interval

Centers having outstationed
eligibility workers*                               39                   1.4                        36.2 - 41.8

Of centers having outstationed
eligibility workers, State funds the
position:**

’ fully                                            45                   3.4                        38.3 - 51.7
t partially                                        30                   3.1                        23.9 - 36.1
. not at all                                       25                   3.0                        19.1 - 30.9

Of centers not having outstationed
eligibility workers, State
designated as “low use” ***

. yes      _-.                                      7                   1.3                         4.5 - 9.5
b no                                               82                   1.9                        78.3 - 85.7
b don’t know            -                          11                   1.5                           8-14




        Table C-2.2: All Health Centers -- Survey Questions on Outstationed         Eligibility     Workers:
                                 Number of Full Time Equivalents (n=159)

                                                 # of Health Centers                              Percent

Of centers having outstationed
eligibility workers, their number     of
FTE’S


’ up to 0.5                                                   44                                    28
. 0.6 to 1.0                                                  64                                    40
’ 1.1 to 2.0                                                  20                                    13
’ 2.1 to 5.0                                                  24                                    15
’ 5.1 to 10.0                                                  6                                     4
b more than 10                                                 1                                     --
I                 Table D-l : Health Center Outreach   Activities         by State                    I
            0. Is your health center conducting   outreach        activities        for SCHIP?
    State                # of Health Centers                 Yes                                 No
                             Responding

     AK                           1                           1                                  __

     AL                           8                           6                                  2

     AR                           6                           6                                  __

     AZ                          10                           9                                  1

     CA                          29                          25                                  4

     co                           8                           7                                  1

     CT                           5                           5                                  -_

     DC                           1                           1                                  --

     DE                           1                           1                                  __

     FL--                        16                          15                                  1

     GA                          13                          11                                  2

     HI                           2                           2                                  __

     IA                           3                           3                                  _-

     ID                           6                           6                                  --

      IL                         13                          13                                  _-

     IN                           6                           6                                  __

     KS                           4                           4                                  _-

     KY                           8                           8                                  -_

     LA                           7                           6                                   1

     MA                           13                         11                                  2

     MD                           8                           6                                  2

     ME                           3                           3                                  --

     Ml                           10                          7                                   3

     MN                           6                           4                                   2

     MO                           8                           8                                  __

     MS                           12                         IO                cA                 2

     MT                           6                           6                                  __
                  Table D-l : Health Center Outreach   Activities         by State 


            Q. Is your health center conducting   outreach        activities       for SCHIP? 


I   State                # of Health Centers
                             Responding
                                                             Yes                              No
                                                                                                       I

     NC                          13                          9                                    4

     ND                           1                          ms                                   1
     NE                           2                           2                                   --

     NH                           4                          4                                    --

     NJ                           7                           6                                   1

    NM                            7                           6                                   1

     NV                           1                          --                                   1

     NY                          20                          17                                   3

    OH                            7                           6                                   1

     oli           _              3                           2                                   1

     OR                           6                           5                                   1

     PA                          13                           9                                   4

     PR                           7                           1                                   6
     RI                           3                           3                                   _-

     SC                          10                           6                                   4

     SD                           4                           4                                   _-

     TN                          16                           6                                   10

     TX                          17                          14                                   3
     UT                           7                           7                                   --

     VA                           8                           8                                   __

     VT                           1                           1                                   --

    WA                           17                          13                                   4

     WI 	                         7                           6                                   1
                                  9                           9                                   --

                                  2                           2                f
I-          Table D-2: Number            Of Outstationed    Eligibility   Workers And Funding       By State

                                          Outstationed   workers                If yes, does your state provide
                                          at your health center?                           funding?                I
    State         # Health Centers
                    Responding



     AL                  8                     3              5.                  2             1              0

     AR                  6                     6              0                   6            0               0

I AZ I                               1         2       1      8                   0            0               2

                                     I        20       I      9                   14           5               1

     co                  8                    '3              5

     CT                  5                     2              3

     DC                  1                     1              0

I    DE      I                    I            0       I      1

I    FL      I     --    16     _ I            6       I     10

     GA                  13                    4              9
     HI                  2                     2              0
     IA 

II31310

I    ID      I                       I         5       I      1

I    IL      I                       I         8       I      5


I    IN      I





1    MA      1           13 	        1         7       I6

                                     I         4    * I       4

1 ME 1                               I         2       I      1
     Ml                  10                    2              8

     MN                  6                     1              5

                                     I         3       I      5

     MS                  12
                                     ]         4.             8
             I
     MT                  6                     2              4

     NC                  13                    4              9
        Table D-Z: Number     Of Outstationed     Eligibility   Workers And Funding     By State

                                Outstationed    workers               If yes, does your state provide
                               at your health center?                            funding?

State      # Health Centers
             Table D-3: Health Centers Designated As A Low Use Site by State
                        When No Eligibility Workers Outstationed

                            Outstationed   workers        If no outstationed workers,
                            at your health center?       designated as a low use site?

State   # Health Centers              No                 Yes          No        Don’t Know
          Responding

 AK                 1                  0
 AL’                8                  5

 AR                 6                  0

 AZ                 10                 8

 CA           .29                      9

 co                 8                  5

 CT                 5                  3

 DC                 1                  0
 DE     ..          1                  1

 FL                 V+                10

 GA                 13                 9

 HI                 2                  0

 IA                 3                  0

 ID                 6                  1

 IL                 13                 5

 IN                 6                  2

 KS                 4                  3

 KY                 8                  6

 LA                 7                  2

 MA                 13                 6

 MD                 8                  4

 ME                 3                  1

 Ml                 10                 8

MN                  6                  5

MO                  8                  5

 MS                 12                 8

 MT                 6                  4             I    0      I     4             0
                                                                                             I
         Table D-3: Health Centers Designated As A Low Use Site by State
                    When No Eligibility Workers Out&ationed

                        Outstationed   workers
                        at your health center?




NE            2                    2

NH            4                    3

NJ            7                    0

NM            7                    6

NV            1                    1

NY           20                   15

OH            7                    7

OK   :        3                   0

OR            6"                   1

PA           13                   13

PR            7                   7

RI            3                    1

SC           10                   5

SD            4                   4

TN           16                   15

TX           17                   10

UT            7                   4

VA            8                   8                   0           8        0

VT            1                   1                   0           1        0

WA           17                   11

WI            7                   2

WV           9                    8
